AUDIT OF MESQUITE POLICE DEPARTMENT’S

EQUITABLE SHARING PROGRAM ACTIVITIES

           MESQUITE, TEXAS



         U.S. Department of Justice

       Office of the Inspector General

                Audit Division



        Audit Report GR-60-12-019

             September 2012

         AUDIT OF MESQUITE POLICE DEPARTMENT’S

         EQUITABLE SHARING PROGRAM ACTIVITIES

                    MESQUITE, TEXAS


                        EXECUTIVE SUMMARY


       The Department of Justice (DOJ) Office of the Inspector General (OIG)
conducted an audit to assess the Mesquite Police Department’s (MPD)
tracking and use of equitable sharing funds. The audit generally covered
fiscal years (FY) 2009 through 2011, beginning on October 1, 2008, and
ending on September 30, 2011. According to the DOJ’s Asset Forfeiture and
Money Laundering Section (AFMLS), during these 3 years, MPD received
$2,120,680 million as a participant in the DOJ equitable sharing program.

      Our audit found that MPD accounted for and deposited equitable
sharing receipts. We also determined that the sample expenditures tested
were allowable and MPD maintained adequate documentation. Further, we
were able to physically verify all sample equipment items and all were
recorded in MPD’s inventory, at their assigned locations, and being put to
allowable uses. However, we identified reporting errors in the equitable
sharing agreement and certification forms. Additionally, MPD misreported
$10,206 in interest earned on Federal seizure funds for FYs 2009 through
2011.

      Our report contains two recommendations that address the
weaknesses we identified. Our findings are discussed in greater detail in the
Findings and Recommendations section of the report. The audit objectives,
scope, and methodology are included in Appendix I.
                                TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1

       Background .................................................................................1

       Mesquite Police Department ..........................................................2

       OIG Audit Approach......................................................................2

FINDINGS AND RECOMMENDATIONS................................................ 4

     Accounting for Equitable Sharing Receipts.........................................4

     DAG-71s.......................................................................................6

     Federal Sharing Agreements and Certification Forms ..........................7

     Use of Equitable Sharing Funds........................................................9

     Recommendations ....................................................................... 10

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY .................. 11

APPENDIX II: MESQUITE POLICE DEPARTMENT RESPONSE 

   TO THE DRAFT REPORT ............................................................ 13

APPENDIX III: OIG ANALYSIS AND SUMMARY OF ACTIONS

   NECESSARY TO CLOSE REPORT ................................................ 15

             AUDIT OF MESQUITE POLICE DEPARTMENT’S

             EQUITABLE SHARING PROGRAM ACTIVITIES

                        MESQUITE, TEXAS


                              INTRODUCTION


      The Department of Justice (DOJ) Office of the Inspector General (OIG)
conducted this audit to assess the tracking and use of DOJ equitable sharing
funds by the Mesquite Police Department (MPD) in Mesquite, Texas. The
audit covered fiscal years (FY) 2009 through 2011, beginning on
October 1, 2008, and ending on September 30, 2011. According to the
DOJ’s Asset Forfeiture and Money Laundering Section (AFMLS) distribution
reports, during these 3 years, MPD received $2,120,680 as a participant in
the DOJ equitable sharing program.

Background

       Because asset forfeiture deprives criminals of the profits and proceeds
derived from their illegal activities, it is one of the most powerful tools
available to law enforcement agencies. A key element of the DOJ’s asset
forfeiture initiative is the equitable sharing program whereby the DOJ and its
components share a portion of federally forfeited cash, property, and
proceeds with state and local law enforcement agencies.

       State and local law enforcement agencies may receive equitable
sharing funds by participating directly with DOJ agencies on investigations
that lead to the seizure and forfeiture of property. Once an investigation is
completed and the seized assets are forfeited, the assisting state and local
law enforcement agencies can request a share of the forfeited assets or a
percentage of the proceeds derived from the sale of forfeited assets.
Generally, the degree of a state or local agency’s direct participation in an
investigation determines the amount or percentage of funds shared with that
agency.

       Three DOJ components work together to administer the equitable
sharing program – the United States Marshals Service (USMS), the Justice
Management Division (JMD), and the Criminal Division’s Asset Forfeiture and
Money Laundering Section (AFMLS). The USMS is responsible for
transferring asset forfeiture funds from the DOJ to the receiving state or
local agency. JMD manages the Consolidated Asset Tracking System
(CATS), a database used to track federally seized assets throughout the
forfeiture life-cycle. Finally, AFMLS tracks membership of state and local



                                      1

participants, updates the equitable sharing program rules and policies, and
monitors the allocation and use of equitably shared funds.

      To request a share of the seized assets, a state or local law
enforcement agency must first become a member of the DOJ equitable
sharing program. Agencies can become members of the program by signing
and submitting an annual equitable sharing agreement and certification form
to AFMLS. As part of each annual agreement, officials of participating
agencies certify that they will use equitable sharing funds for law
enforcement purposes.

Mesquite Police Department

      Incorporated in 1887, the City of Mesquite is located in eastern Dallas
County, Texas. The City of Mesquite has a population of over 139,000
residents living across 46 square miles. According to Mesquite Police
Department (MPD) officials, MPD was established in 1953 and has been
under the leadership of the current Police Chief for the last four years. In
addition, we were informed that MPD was governed by the City of Mesquite,
which is led by the Mayor, City Manager, and a six-person City Council.

      MPD has been a member of the DOJ equitable sharing program since
October 6, 1999. According to the MPD official responsible for completing
and submitting the annual Equitable Sharing and Agreement Certification
forms, MPD collaborates with the Drug Enforcement Administration for
equitable sharing purposes.

OIG Audit Approach

     We tested compliance with what we considered to be the most
important conditions of the DOJ equitable sharing program. Unless
otherwise stated, we applied the AFMLS Guide to Equitable Sharing for State
and Local Law Enforcement Agencies (Equitable Sharing Guide) as our
primary criteria. The Equitable Sharing Guide outlines procedures for
submitting equitable sharing requests and discusses the proper use and
accounting for equitable sharing assets.

      To conduct the audit, we tested MPD’s compliance with the following
three aspects of the DOJ equitable sharing program:

   •	 Federal Sharing Agreements and Certification Forms to

      determine if these documents were complete and accurate.




                                      2

  •	 Accounting for equitable sharing receipts to determine whether
     standard accounting procedures were used to track equitable sharing
     assets.

  •	 Use of equitable sharing funds to determine if equitable sharing
     cash was used for law enforcement purposes.

     See Appendix I for more information on our objectives, scope and
methodology.




                                    3

                    FINDINGS AND RECOMMENDATIONS

      We found that the Mesquite Police Department properly
      accounted for and deposited equitable sharing receipts. We also
      determined that the sample expenditures tested were allowable
      and MPD maintained adequate documentation. Further, we were
      able to physically verify all sample equipment items and all were
      recorded in MPD’s inventory, at their assigned locations, and
      being put to allowable uses. However, we also identified
      reporting errors in the equitable sharing agreement and
      certification forms. Additionally, MPD misreported $10,206 in
      interest earned on federal seizure funds for FYs 2009 through
      2011.

Accounting for Equitable Sharing Receipts

       The Equitable Sharing Guide requires that law enforcement agencies
use standard accounting procedures to track equitable sharing program
receipts. We reviewed the Department of Justice (DOJ) Asset Forfeiture and
Money Laundering Section’s (AFMLS) Detail Distribution Report and
determined the Mesquite Police Department (MPD) did not receive any
tangible assets during FYs 2009 through 2011. From FYs 2009 to 2011, the
AFMLS Detail Distribution Report for MPD recorded equitable sharing receipts
totaling $2,120,680, as shown in Exhibit 1.

EXHIBIT 1: MESQUITE POLICE DEPARTMENT EQUITABLE SHARING
           RECEIPTS
                                                TANGIBLE
        FY              CASH OR PROCEEDS         ASSETS        TOTAL
       2009               $   423,193              $­        $   423,193
       2010                   500,342               -            500,342
       2011                 1,197,145               -          1,197,145
      TOTAL               $2,120,680               $­        $2,120,680
Source: AFMLS DOJ Detail Distribution Report

      According to the Equitable Sharing Guide, the United States Marshals
Service (USMS) electronically transfers equitable sharing payments to a
state or local law enforcement agency’s bank account. To determine if MPD
properly deposited and accounted for DOJ equitable sharing funds, we
reviewed and reconciled MPD’s accounting records to DOJ reports of
equitable sharing funds distributed and corresponding bank records. Our
review indicated that DOJ equitable sharing funds were properly deposited.



                                           4

      Through our review of MPD’s accounting records, we determined that
MPD was separately accounting for DOJ equitable sharing receipts and
expenditures as required by the Equitable Sharing Guide. The city of
Mesquite’s Manager of Accounting stated that all electronic fund transfers
(EFT) received in the City bank account are reviewed for the purpose of the
transfer to properly record the transaction on the general ledger. In
addition, she stated that once it is confirmed that the funds are federal, the
Accounting Department prepares a journal voucher to record the transaction
to the appropriate federal seizure fund Organization Cost Account (OCA) and
revenue account number.

      We judgmentally selected and tested seven receipts totaling
$1,088,073 to ensure the funds were properly deposited and recorded.
Exhibit 2 shows the sampled receipts were properly deposited and recorded.

EXHIBIT 2: MPD EQUITABLE SHARING RECEIPTS REVIEWED
          DOJ DETAIL
    DISTRIBUTION REPORT OR                            MPD RECORDS
      USMS E-SHARE LOG

 TRANSACTION       DISBURSEMENT         AMOUNT             DEPOSIT
                                                                        DEPOSIT DATE
    DATE              AMOUNT            RECEIVED           AMOUNT

  03/24/2011          $390,393           $390,393          $390,393       03/24/2011
  03/24/2011           288,623            288,623           288,623       03/24/2011
  07/25/2011           161,991            161,991           161,991       07/25/2011
  12/16/2008           134,886            134,886           134,886       12/15/2008
  06/09/2011           107,871            107,871           107,871       06/09/2011
  01/26/2009             3,771              3,771             3,771       01/26/2009
  01/26/2009               538                538               538       01/26/2009
      TOTAL         $1,088,073         $1,088,073        $1,088,073
Source:	 AFMLS DOJ Detail Distribution Report, USMS E-Share Log, Mesquite Police
         Department Accounting Records and Bank Statements

       According to the Equitable Sharing Guide, local law enforcement
agencies must update their equitable sharing log when an E-Share
notification is received. Through our review of the equitable sharing
receipts, we discovered that MPD was not consistently receiving USMS
E-Share notifications for each equitable sharing receipt deposited into its
bank account. MPD received only five E-Share notifications from the USMS
from September 16, 2010, to February 16, 2012. However, according to the
AFMLS DOJ Detail Distribution Report, MPD received 30 equitable sharing
receipts in FY 2011 alone. We confirmed with responsible officials at the
USMS that it had the correct e-mail address for the MPD official that receives

                                           5

E-Share notifications. We asked those same USMS officials why MPD had
not been consistently receiving the E-Share notifications. The officials stated
that the notifications might be blocked by MPD’s IT firewall or sent to a junk
e-mail folder. The MPD official that receives notifications stated that he
regularly checks his junk e-mail folder and was skeptical that the IT firewall
is preventing the notifications from getting through. Despite the fact that
MPD had not received regular notification of equitable sharing receipts, our
work indicated that it has tracked Federal equitable sharing receipts
deposited into its account and adequately documented them in its
accounting records.

DAG-71s

       According to the Equitable Sharing Guide, agencies receiving equitable
sharing revenues should maintain a log of all sharing requests that lists the
seizure type, seizure amount, share amount requested, amount received,
and date received for each request. Since the amount actually received may
differ from the amount requested on the DAG-71 forms, receiving agencies
should periodically update the log to ensure accurate recordkeeping. 1

      We interviewed the MPD officials responsible for completing the
DAG-71 forms and maintaining the log of all sharing requests. According to
one official, MPD conducts collaborative investigations with the Drug
Enforcement Administration (DEA). If officers seize assets during these
investigations, such as cash and property items, a Form DAG-71 is
submitted to the DEA to request a percentage, or share, of the asset’s
proceeds. The same official stated that the percentage is determined by the
DEA.

      Another MPD official maintains the equitable sharing log (DAG-71 Log).
He stated that once the DAG-71s are completed, he enters the data from the
forms into a database system that he created and maintains. He informed
us that once an equitable sharing receipt is deposited, he updates the
database with the information. We reviewed the DAG-71 Log and
determined that it captures the seizure type, seizure amount, share amount
requested, amount received, and date received for each request.




       1
          According to the Equitable Sharing Guide, a state or local agency completes and
submits a separate Form DAG-71, “Application for Transfer of Federally Forfeited Property”
for each shared asset request.

                                             6

Federal Sharing Agreements and Certification Forms

       According to the Equitable Sharing Guide, state and local law
enforcement agencies must submit Equitable Sharing Agreement and
Certification forms within 60 days after the end of an agency’s fiscal year.
The agreement must be signed by the head of the law enforcement agency
and a designated official of the local governing body. Additionally, the
receiving agency should submit a newly signed agreement when an
administration change occurs. By signing and submitting the agreement,
the signatories agree to follow statutes and guidelines that regulate the
equitable sharing program.

     According to the official responsible for completing and submitting the
agreement forms, he requests an end of year report from the Accounting
Department that shows the amount of Federal seizure revenues and
expenditures. He uses the data from the accounting report to complete the
agreement forms, has the Mesquite Police Chief and City of Mesquite City
Manager certify the forms, and submits them to the AFMLS.

      We obtained copies of MPD’s certification forms for FYs 2009 through
2011 to determine if the forms were complete, accurate, and submitted on
time. We found that MPD generally submitted the agreement forms on time.
The agreement form for FY 2010 was 3 days late. The MPD official
responsible for submitting the agreement forms stated that it inadvertently
sat on another official’s desk for too long and was forgotten. Since the form
was only 3 days late, we will not take exception to it. We also noted that
the agreements were signed by appropriate officials.

       To verify the total amount of equitable sharing funds MPD received, we
compared the receipts listed on the certification forms to the total amounts
listed on the DOJ’s detail distribution reports for FYs 2009 through 2011.
We identified errors on the FY 2010 certification form. Specifically, we found
that the certification form listed a total of $80 more in receipts than the DOJ
detail distribution report. In addition, MPD listed $14,100 in “Other Income”
on the FY 2010 certification form that should not have been reported.

      We discussed the errors in the report with the official responsible for
completing and submitting the agreement forms. He stated that he was
unsure why the numbers did not reconcile for FY 2010 because he used the
report from the Accounting Department to complete the agreement forms.
In addition, he explained that the $14,100 income reported in FY 2010 was
from the sale of a State of Texas vehicle seizure. The City Accounting
Manager stated that the proceeds from the sale of the vehicle were


                                      7

miscoded to the Federal seizure account instead of the State seizure
account. In addition, she stated that the other minor discrepancies we
noted were due to miscoding issues and data being incorrectly input into the
accounting system. During our fieldwork, the Accounting Manager corrected
the $14,100 income receipt by reallocating it to the correct fund account.
However, despite the $80 receipt being reallocated on November 5, 2010,
we did not note a correcting entry in the accounting records that we were
provided for this review.

       We also compared the receipts listed on the certification forms to the
total amounts listed on the United States Marshals Service (USMS) E-Share
Log report for FYs 2009 through 2011. We found that the amounts listed on
the certification form did not reconcile to the USMS E-Share Log report. The
certification forms listed a total of $4,228 less in receipts than the E-Share
Log for FYs 2009 through 2011.

       As previously noted, there were miscoding issues and inaccurate data
entry into the accounting system. For FY 2009, the USMS disbursed two
equitable sharing receipts for a total of $4,308 on January 26, 2009, in
error. The funds were subsequently returned to USMS on February 17,
2009. However, when we received the USMS E-Share Log report, it still
reflected the two payments made to MPD. The USMS official that provided
us the E-Share Log informed us that the accounting system does not reflect
payments sent back to the USMS as a result of an error. Since the USMS
E-Share Log does not reflect this information, we do not take exception to
the FY 2009 certification form not reconciling to it.

       To verify the total expenditures listed on the certification, we
compared the expenditures reported on the certification forms to the
accounting records for FY 2009 through 2011. We noted that the
certification form for FYs 2009 and 2011 reconciled to the accounting
records. However, the certification form for FY 2010 did not reconcile to the
accounting records. As previously stated, $14,100 in revenue was
misreported on the accounting records. The $14,100 in revenue was
subsequently reallocated to the correct account.

      We also noted on the certification form that MPD misreported the
interest earned on Federal equitable sharing receipts for FYs 2009 through
2011 in the amount of $10,206. The City of Mesquite had been allocating
25 percent of its interest earnings to the Federal seizure account and
75 percent of its interest earnings to the State seizure account. However,
the average monthly cash balances did not support the current allocations to
these accounts. The actual monthly cash balances support allocating


                                      8

36 percent for FY 2009, 34 percent for FY 2010, and 39 percent for FY 2011
of the interest to the Federal seizure account. The City of Mesquite
Accounting Manager stated that she was unsure how the 25 percent and
75 percent allocation was calculated because the individual that made the
decision is no longer with the City. In addition, she stated that future
interest allocations will be based on the prorated share of the cash balance
between the Federal and State seizure accounts. During our audit, the
Accounting Manager corrected this issue by reallocating the $10,206 in
interest earned to the Federal seizure account.

      Inaccurate and untimely reporting of equitable sharing fund activities
may adversely affect DOJ equitable sharing fund program efforts. Therefore,
we recommend the Criminal Division ensure that the Mesquite Police
Department submits accurate equitable sharing agreement and certification
forms. In addition, we recommend the Criminal Division ensure that the
Mesquite Police Department applies the correct interest earned allocation to
the Federal seizure fund account.

Use of Equitable Sharing Funds

      As summarized by Exhibit 3, the Equitable Sharing Guide outlines
allowable and unallowable uses for equitable sharing funds. 2

EXHIBIT 3: SUMMARY OF ALLOWABLE AND UNALLOWABLE USES FOR
           EQUITABLE SHARING FUNDS
             ALLOWABLE USES                               UNALLOWABLE USES
                                                 Salaries and benefits for current law
     Law enforcement investigations
                                                        enforcement personnel
                                                 Use of forfeited property by non-law
          Law enforcement training
                                                        enforcement personnel
     Law enforcement and detention                Payment of non-law enforcement
                 facilities                             education-related costs
       Law enforcement equipment                     Non-official government use
       Law enforcement travel and
                                                   Purchase of food and beverages
              transportation
      Asset accounting and tracking
                                                        Extravagant expenses
                 expenses
Source: Equitable Sharing Guide

      Generally, the use of equitable sharing revenues by state and local
recipient agencies is limited to law enforcement purposes. However, the

      2
        The Equitable Sharing Guide includes the complete list of allowable and
unallowable uses for equitable sharing funds.

                                            9

Equitable Sharing Guide identifies other permissible uses such as drug and
gang education and awareness programs, matching contributions in federal
grant programs, a law enforcement agency’s percentage of the costs to
support multi-agency items or facilities, costs associated with properly
accounting for equitably shared monies and tangible property, training in
connection with language services for persons with limited English
proficiency, and non-cash support of formally approved nonprofit
community-based programs.

      The Mesquite Police Department spent a total of $693,001 from its
DOJ Federal seizure fund account during FYs 2009 through 2011. Purchases
included surveillance equipment, servers and software, video equipment,
body armor, and other law enforcement equipment and supplies.

      To assess whether MPD equitable sharing expenditures were allowable
and supported by adequate documentation, we judgmentally sampled
22 transactions totaling $448,830, or approximately 65 percent of the total
amount of Federal seizure funds expended during the audit period. The
sample included high-dollar purchases, as well as other costs we
judgmentally selected. We determined that all 22 transactions we tested
were allowable and MPD maintained adequate documentation.

       In addition, we physically verified purchased equipment in our
expenditure sample to determine if it was recorded in MPD’s inventory, at
their assigned locations, and being put to an allowable use. We determined
that all 22 items we physically verified were listed in MPD’s inventory, at
their assigned locations, and being put to an allowable use.

Recommendations

We recommend that the Criminal Division:

1.	   Ensure that MPD submit accurate equitable sharing agreement and
      certification forms.

2.	   Ensure that the Mesquite Police Department applies the correct
      interest earned allocation to the federal seizure fund account.




                                     10

                                                               APPENDIX I

               OBJECTIVE, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

Objective

      The objective of the audit was to assess whether the Mesquite Police
Department (MPD) accounted for equitable sharing funds properly and used
the funds for allowable purposes defined by applicable guidelines. We tested
compliance with what we considered to be the most important conditions of
the Department of Justice’s (DOJ) equitable sharing program. We reviewed
laws, regulations, and guidelines governing the accounting for and use of
DOJ equitable sharing receipts, including pertinent versions of the Criminal
Division’s Guide to Equitable Sharing for State and Local Law Enforcement
Agencies. Unless otherwise stated in our report, the criteria used during the
audit were contained in this document.

Scope and Methodology

       Our audit concentrated on, but was not limited to, equitable sharing
receipts received by MPD between October 1, 2008, and September 30,
2011. During FYs 2009 through 2011, there were 123 receipts totaling
$2,120,680. We tested a judgmental sample of seven receipts totaling
$1,088,073. During FYs 2009 through 2011, there were federal equitable
sharing fund expenditures of $693,001. We selected a judgmental sample
of 22 disbursements, totaling $448,830, or approximately 65 percent of the
total expenditures made with equitable sharing funds during the audit
period. We applied our judgmental sampling design to obtain a broad
exposure to numerous facets of the disbursements reviewed, such as dollar
amounts. This non-statistical sample design did not allow us to project
results of our testing to the entire universe of equitable sharing
disbursements made in the scope of our audit.

     We performed audit work at MPD headquarters located in Mesquite,
Texas. To accomplish the objectives of the audit, we interviewed MPD and


                                     11

City of Mesquite officials and examined records, related revenues, and
expenditures of equitable sharing revenues. In addition, we relied on
computer-generated data contained in the DOJ Detail Distribution Report for
determining equitably shared revenues awarded to MPD during the audit
period. We did not establish the reliability of the data contained in the DOJ
Consolidated Asset Tracking System as a whole. However, when the data
used is viewed in context with other available evidence, we believe the
opinions, conclusions, and recommendations included in this report are valid.

      Our audit specifically evaluated MPD’s compliance with three essential
equitable sharing guidelines: (1) accounting for equitable sharing receipts,
(2) Federal Sharing Agreements and Annual Certification Reports, and
(3) use of equitable sharing funds. In planning and performing our audit, we
considered internal controls established and used by MPD and the City of
Mesquite, Texas, over DOJ equitable sharing receipts to accomplish our audit
objectives. However, we did not assess MPD’s financial management
system’s reliability, internal controls, or whether it, as a whole, complied
with laws and regulations.

      Our audit included an evaluation of a city-wide audit conducted of the
City of Mesquite, of which the auditee is a sub-unit, by Grant Thornton, LLP.
The results of this audit were reported in the Single Audit Report that
accompanied the Comprehensive Annual Financial Report for the year ended
September 30, 2011. The Single Audit Report was prepared under the
provisions of Office of Management and Budget Circular A-133. We
reviewed the independent auditor’s assessment, which disclosed no control
weaknesses or significant noncompliance issues related specifically to the
Mesquite Police Department.




                                     12

                                                                                                  APPENDIX II

                            MESQUITE POLICE DEPARTMENT
                           RESPONSE TO THE DRAFT REPORT




MESQU~TEs
T  x E         A
                                                 The Professional Police Officer
                                                      With Integrity and Honor He Serves
                                                             That Men May Know Justice, Equality,
Real. Texas . Service .                                            And Freedom Under The law



                                                 September 7, 2012



    Da vid M. Sheeren
    Regional Audit Manager
    U.S. Department of Justice
    Office of the rn spector General
    Denver Reg ional Audit Office
    1120 Lincoln, Suite 1500
    Denver, Colorado 80203

    Dear Mr. Sheeren:

    Re: M esquite Police Departmc!lt Equi table Sharing Program Activities Audit

    The M esquite Police D epartmen t has reviewed the draft audit report on the Audit of Mesquite Police
    Depa rtment's Equitabl e Sharing Program Ac ti vities Mesquite, Texas for fiscal years 2009 through 2011.
    The a udit found the Mesquite Police Department in compliance with most Equitable Sharing Program
    requirements. There were, however, two areas of weakness noted with related recommendations from the
    Department of Justicc. Following is the Mesquite Police Department's official response to the audit report
    findings and recommendations.

    Findings I Recommendations:

    Finding I: E rrors in rhe equirable sharing agreemenl amI cerrijicalio1J/orms.

            Recommendation
            Ensure that MPD submit accurate equitable sharing agreement and certification fonna.

            ReSpOnse
            We agree with the importance of sub mini ng accurate equi table sharing agreement and
            certification forms. The equitable sharing agreements will be prepared by the Mesquite Police
            Dcpattment offieer assigned responsibility for the reporting requireme nt us ing reports from the
            City of Mesq uite accounting system. The officer will review all federal seizure account
            transactions for the reporting period to ensure they are properly reported as federal seizure fund
            activity. The draft reports will be reviewed by the Manager of Accounting Services for aCCUTiley
            prior to submission to the C hief of Police for signature and final submissio n. Every effort will be
            taken to identify any transactions that arc not part of the federal seizure program duri ng thi s
            review.




                                            Derek Rohde. Chief of Police
                   P.O. Box 850137 • Mesquite. Texas 75 185-0137 • 972.216.6228 • 972.2 16.6780 Fax




                                                        13

Mesquite Police Department                                                                   September 7, 2012
Equitable Sharing Program Activities Audit




Finding 2: interest illcome ofJIO,206 misreported bcrwccnfoderal seizwejimds arul state seizllrejimds.

        &ecommendlltjoll
        Ensure: that the Mesquite Police Department applies the: correct interest earned alloca tion to thc
        federal seizure fund account.

        Respon~e
        We agree that the correct interest earncd allocation should be applied to the federal seizure fund
        account. The Cit)' of Mesquite's policy for a llocating interest eamed between various funds is
        based on the IIVCfIIgC cash bal!lllce of each fund. As noted in the aud it report, a Oat allocation rate
        was ust.'rl to allocate interest between the federal seizure fund and state seizure fu nd during the
        audi t period instead of the: calculated average cash balance: faelo r for each fund. A correction was
        made to rcclass the $10,206 of interest earned back 10 the fede rdl seizure fund . The federal and
        state seizure funds have been changed to allocate interest earned based on the average eash
        balance for fiscal year 2012 and forward .

Working with Dallas Moore during the audit of the Mesquite Police Department's Equitable Sharing
PrtJgmm Activities was a pleasure. Our staff found Mr. Moore to be efficient, thorough and professional
in all respects. Our goal is to fully comply with all requirements of the equitable sharing program and we
appreciate the assistance and guidance from the Department of Justice Office ofthc Inspector General
throughout the audit.



                                                Derek Rohde
                                               Chief of Police




                                                     14

                                                               APPENDIX III

                  OFFICE OF THE INSPECTOR GENERAL

                 ANALYSIS AND SUMMARY OF ACTIONS 

                    NECESSARY TO CLOSE REPORT


       The Department of Justice Office of the Inspector General (OIG)
provided a draft of this audit report to the Criminal Division and the Mesquite
Police Department (MPD). We incorporated MPD’s response as Appendix II
of this final report. However, the audit recommendations are resolved
because the Criminal Division declined to provide formal comments on the
draft report. The Deputy Chief of the Criminal Division Asset Forfeiture &
Money Laundering Section stated it had nothing to add prior to the final
report issuance. However, he provided an electronic mail statement that
concurred with both recommendations and informed us they would work
with MPD to address and close them. The following provides the OIG
analysis of MPD’s response and a summary of actions necessary to resolve
each report recommendation.

Recommendation Number

1.	   Resolved. MPD concurred with our recommendation to submit
      accurate equitable sharing agreement and certification forms. MPD
      stated in its response that the MPD officer assigned responsibility will
      review all federal seizure account transactions for the reporting period
      to ensure they are properly reported. In addition, the reports will be
      reviewed by the Manager of Accounting Services for accuracy.

      This recommendation can be closed once the Criminal Division ensures
      that MPD submits accurate equitable sharing agreement and
      certification forms.

2.	   Resolved. MPD concurred with our recommendation to apply the
      correct interest earned allocation to the federal seizure amount. MPD
      stated in its response that the federal and state seizure funds have
      been changed to allocate interest earned based on the average cash
      balance for fiscal year 2012 and forward.

      This recommendation can be closed once the Criminal Division ensures
      that MPD has changed its interest allocation to be based on the
      average cash balance for fiscal year 2012 and forward.



                                      15

